      Department of Homeland Security





       United States Customs and Border Protection’s 

            Radiation Portal Monitors at Seaports 





OIG-13-26                                         January 2013

                          OFFICE 0.1" INSPECrOR GENERAL


                                JAN 2 9 Z013
MEMORANDUM FOR:               Kevin K. McAleenan
                              Acting Assistant Commissioner
                              Office of Field Operations
                              U.S. Customs and Border Protection

                              Steve Karoly
                              Assistant Director
                              Product Acquisition and Deployment
                              Domestic Nuclear Detection Office
                                                 /.1_ .•   ...!/ "   ~
FROM:                         Anne L. Richards ~"'~~
                              Assistant Inspector General for Audits

SUBJECT:                      United States Customs and Border Protection's Radiation
                              Portal Monitors at Sl!aports

Attached for your action is our final report, United States Customs and Border
Protection's Radiation Portal Monitors at Seaports. We incorporated the formal
comments from the United States Customs and Border Protection and the Domestic
Nuclear Detection Office in the final report.
The report contains three recommendations aimed at improving the overall
effectiveness of the radiation portal monitoring program at seaports. Your offices
concurred with all recommendations. Based on information provided in your response
to the draft report, we consider the recommendations resolved. Once your office has
fully implemented the recommendations, please submit a formal closeout letter to uS
within 30 days so that we may close the recommendations. The memorandum should
be accompanied by evidence of completion of agreed-upon corrective actions and of
the disposition of allY monetary amoullts.

Consistent with our responsibility ullder the Inspector Generol Art, we are providillg
copies of our report to appropriate ~Ollgressional committees with oversight and
appropriation responsibility ove r the Departmellt of Homeland Security. We will post
the report all our website for public dissemination.
Please call me with ally questiolls, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at {lOl) 154-4100

Attachmellt
                                       OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   

   Executive Summary............................................................................................................. 1 

   

   Background ........................................................................................................................ 2 

   

   Results of Audit .................................................................................................................. 4 

   

          RPM Screening at Seaports .................................................................................... 5 

          Recommendations ............................................................................................... 10 

          Management Comments and OIG Analysis ......................................................... 10 

       

   Appendixes               

              

              Appendix A:            Objectives, Scope, and Methodology ........................................... 13 

              Appendix B:            Management Comments to the Draft Report .............................. 15 

              Appendix C:            CBP Process for Resolving RPM Alarms ........................................ 19 

              Appendix D:            Response to Congressional Mandate to Assess Training ............. 20 

              Appendix E:            RPM Reconfiguration Process ...................................................... 22 

              Appendix F:            RPM Program Planning ................................................................ 23 

              Appendix G:            Major Contributors to This Report ............................................... 24 

              Appendix H:            Report Distribution ....................................................................... 25 

    

   Abbreviations                 


              CBP                    United States Customs and Border Protection
              DHS                    Department of Homeland Security
              DNDO                   Domestic Nuclear Detection Office
              FY                     fiscal year
              OIG                    Office of Inspector General
              PEP                    Project Execution Plan (2006)
              PNNL                   Pacific Northwest National Laboratory
              RPM                    radiation portal monitor
              SAFE Port Act          SecurityfandfAccountabilityfforfEveryfPortfActfoff2006
              U.S.                   United States 

              





www.oig.dhs.gov                                                                                                                 OIG-13-26
                            OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


    Executive Summary
   According to the SecurityfandfAccountabilityfforfEveryfPortfActfoff2006, as amended, all
   containers entering the United States (U.S.) at the 22 ports through which the greatest
   container volume enters the country by vessel must be screened for radiation. To
   secure the Nation’s borders while facilitating legitimate trade and travel, United States
   Customs and Border Protection (CBP) screens incoming shipments for elevated radiation
   levels, using large-scale radiation detectors called radiation portal monitors. In fiscal
   year 2011, CBP screened approximately 24.3 million containers coming through all U.S.
   ports of entry. The Domestic Nuclear Detection Office (DNDO) tests, acquires, deploys,
   and provides maintenance in the first year of operation; CBP provides maintenance
   after the first year. CBP has the lead for commissioning, operating, and maintaining the
   radiation portal monitors. We conducted this audit to determine whether DNDO and
   CBP deploy and use radiation portal monitors to ensure the most efficient cargo
   screening at seaports. Our audit also addressed the congressional mandate in the Coastf
   GuardfandfMaritimefTransportationfActfoff2004, as amended,fto conduct an annual
   evaluation of the cargo inspection system.

   DNDO reported that there are currently 444 radiation portal monitors operating at
   seaports throughout the U.S., which are meeting the requirement to screen all
   containerized cargo at the 22 seaports with the most container volume. We were
   unable to determine whether DNDO and CBP initially deployed radiation portal
   monitors to ensure operational efficiency because the components did not thoroughly
   document deployment decisions and plans. Although all cargo is being screened, we
   identified some radiation portal monitors utilized infrequently or not utilized at all.

   The components do not fully coordinate or centrally manage the radiation portal
   monitor program to ensure effective and efficient operations. Specifically, CBP does not
   consistently gather and review utilization information to ensure that it is fully utilizing all
   radiation portal monitors. CBP does not always monitor and promptly evaluate changes
   in the screening environment at seaports to relocate radiation portal monitors as
   necessary. Finally, DNDO and CBP do not accurately track and monitor their inventory
   of radiation portal monitors. Given the radiation portal monitors’ limited life and the
   lack of funding for new monitors, CBP and DNDO should better coordinate to fully
   utilize, promptly relocate, and properly maintain inventory to best use resources and to
   continue screening of all containerized cargo entering U.S. seaports. The components
   concurred with our three recommendations and will identify a single program office
   responsible for fully coordinating and centrally managing the program; establish
   guidelines to track and report the utilization of monitors at every seaport; and develop
   and document a formal collaborative process to ensure that monitor relocation is
   effectively planned and implemented to meet security needs at seaports.



www.oig.dhs.gov                                  1                                          OIG-13-26

                            OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Background
   CBP is responsible for securing the Nation’s borders while facilitating legitimate trade
   and travel. According to the SecurityfandfAccountabilityfforfEveryfPortfActfoff2006f(SAFE
   Port Act), as amended, all containers entering the U.S. by vessel through the 22 seaports
   with the greatest container volume must be scanned, also referred to as screened, for
   radiation. In fiscal year (FY) 2011, CBP screened approximately 24.3 million containers
   through all ports of entry. Ports of entry are responsible for daily port-specific
   operations at locations such as seaports, land borders, mail facilities, and rail crossings.

   CBP uses a multilayered approach of risk-based analysis, intelligence, and high-risk
   shipment examination to manage potential security threats from the large volume of
   maritime cargo. The component screens shipments for elevated radiation levels using
   large-scale radiation detectors called radiation portal monitors (RPM). CBP has
   established protocols to isolate cargo and once detected, determine the level and type
   of radiation.

   The RPM detection system is a passive, non-
   intrusive means to screen vehicles and containers       Exhibit 1 – RPM System
   for the presence of nuclear and radiological
   materials. Vehicles and containers pass through
   RPM sensor panels positioned on opposite sides
   of seaport terminal exit lanes. Two panels,
   situated on each side, contain tubes filled with
   helium-3 and polyvinyl toluene plastic to detect
   radiation sources as containers pass through the
   system. Exhibit 1 shows RPM panels in an exit
   lane.

   In addition to radiation sensor panels, the RPM      RPM panels in an exit lane; two panels on
   system includes other sensors to communicate         each side screen containers for radiation
   alarms and system problems to CBP officers           as vehicles move slowly (5 mph) through.
                                                        Source: DHS OIG
   through indicator lights and audio messages. The
   system also includes ancillary components such as traffic lights, booths, and remote
   monitoring stations. The systems can detect various types of radiation emanating from
   nuclear devices, dirty bombs, special nuclear materials, natural sources, and isotopes
   commonly used in medicine and industry.




www.oig.dhs.gov                                  2                                          OIG-13-26

                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Several entities participate in the RPM program, including:

       •	 Department of Homeland Security (DHS) - DNDO tests, acquires, deploys RPMs,
          and provides maintenance during the first year of RPM operation.
       •	 Pacific Northwest National Laboratory (PNNL) - a contractor to DNDO that
          deploys and installs RPMs.
       •	 CBP has the lead for commissioning, operating, and maintaining the RPMs.
       •	 CBP officers at the ports of entry maintain custody of the RPM inventory onsite,
          operate RPMs, and resolve all radiation detection alarms.

   At each port of entry where equipment is deployed, the primary RPM screens a vehicle
   or container for radiation. CBP officers may release containers that do not set off
   alarms. Vehicles or containers that set off radiation detection alarms during the primary
   screening are sent to secondary screening. If the secondary screening continues to
   alarm, officers must determine if the radiation source is an actual threat. If required,
   CBP Laboratories and Scientific Services provide forensic and scientific analysis to assist
   officers in their determination.

   CBP officers must report the specific type of radiation detected during the secondary
   screening to a supervisor or secondary Inspection Officer. Using handheld radiation
   detection equipment, officers must isolate and locate the radiation source, establish a
   safety perimeter, identify the radiation source, and implement the appropriate radiation
   response procedures. Appendix C contains more information on the alarm resolution
   process.

   As of August 2012, DNDO and CBP reported that they had installed 1,459 RPMs at ports
   of entry nationwide, including 444 that were operational at seaports. Initially, DNDO
   and CBP deployed RPMs to fulfill the mandate to screen all incoming containerized
   cargo at the 22 highest container volume seaports in the U.S. At times, RPMs are
   removed or relocated because of changes in the flow of commerce initiated by
   commercial shipping companies or changes in the physical layout of seaports due to
   terminal expansions or closures.

   Since the inception of the RPM program, CBP reports screening more than 679 million
   transported containers for radiological contraband, resulting in more than 2.8 million
   radiation alarms. According to DNDO and CBP’s Project Execution Plan (PEP),
   approximately $623 million was spent on the RPM program between FY 2002 and
   FY 2011.

   Initial estimates of the deployed RPMs showed an average useful life expectancy of
   10 years. Based on the initial estimates, some RPM equipment will become obsolete by
   2014, with no useful RPMs at seaports by 2021. Subsequent studies have shown that


www.oig.dhs.gov                                3	                                       OIG-13-26

                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   the service life can be increased with continued maintenance and improvements.
   However, DNDO has not yet funded or deployed technologies to increase the service life
   of current RPMs or decided on a new technology to replace them. In 2005, DNDO
   began to develop, test, and deploy advanced screening technology through its Advanced
   Spectroscopic Portal Program, but DHS cancelled the program in 2011 because of
   operational and technical challenges. DNDO created the Polyvinyl-Toluene
   Improvement Program intended to increase RPM service life and efficiency. One of
   seven studies created under this program focused on extending service life; the others
   focused on improving detection capabilities and providing a tool to monitor RPM panel
   status. These research and development studies have been funded since FY 2010, but
   implementation will not begin until FY 2014, with very limited funding.

   This audit responds to the congressional mandate in Section 809(g) of the CoastfGuardf
   andfMaritimefTransportationfActfoff2004f(Public Law 108-293), as amended. This act
   requires the DHS Office of Inspector General (OIG) to conduct an annual evaluation of
   the cargo inspection system for international intermodal cargo containers. We
   reviewed the sources and quality of information used by the cargo inspection system to
   determine whether it is collected from the best and most credible sources, and we
   evaluated data sources to determine information gaps and weaknesses. We checked
   the system for reporting and analyzing inspection statistics, system operator
   competence and training, whether the system effectively detects potential acts of
   terrorism, and deficiencies that need to be remedied. Appendix A contains our
   objectives, scope, and methodology. Appendix D contains our assessment of operator
   training.

   Results of Audit
   DNDO reported that there are currently 444 RPMs screening all containerized cargo at
   the 22 seaports with the most container volume. We were unable to determine
   whether DNDO and CBP initially deployed RPMs to ensure operational efficiency
   because the components did not thoroughly document deployment decisions and plans.
   Although all cargo is being screened, we identified some RPMs utilized infrequently or
   not utilized at all.

   The components do not fully coordinate or centrally manage the RPM program to
   ensure effective and efficient operations. Specifically:

       •	 CBP does not consistently gather and review utilization information to ensure
          that it is fully utilizing all RPMs.
       •	 CBP does not always monitor and promptly evaluate changes in the screening
          environment at seaports to relocate RPMs as necessary.



www.oig.dhs.gov                               4	                                     OIG-13-26

                            OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


       •   DNDO and CBP do not accurately track and monitor their inventory of RPMs.

   Given the RPMs’ limited life and the need for funding for new monitors, CBP and DNDO
   should better coordinate to fully utilize, promptly relocate, and properly maintain
   inventory to best use resources and to continue screening of all containerized cargo
   entering U.S. seaports.

           RPM Screening at Seaports

           According to DNDO, there are currently 444 RPMs screening 99 percent of
           inbound containerized cargo at seaports; the other 1 percent of incoming cargo
           enters the U.S. at low-volume seaports.

           Initial RPM Deployment

           We were unable to determine whether DNDO and CBP initially deployed RPMs
           to ensure operational efficiency because the components did not thoroughly
           document deployment decisions and plans. DNDO and CBP used the PEP to
           guide RPM deployment. The PEP was approved in 2006 and included the
           required scope of work, deployment schedules by location, and costs to deploy
           RPMs to ports of entry. However, the components could not provide complete
           information on the factors used to determine the number of RPMs to deploy at
           each location. Although CBP provided documentation to support initial
           deployment to screen all containerized cargo at the 22 seaports with the most
           container volume, it could not provide evidence to justify placement of RPMs at
           specific seaports.

           During our site visits to seven seaports, we identified RPMs that had been
           deployed but not used for several years. In addition to the 444 RPMs currently
           at seaports, 46 others have been removed since their initial deployment.
           According to CBP, some of these units are being relocated. CBP also plans to
           relocate 23 other RPM systems in the near future.

           Without documentation to support how CBP and DNDO made initial deployment
           decisions, we were unable to determine whether RPMs were unused or being
           removed because they were not properly deployed. It is not clear whether
           DNDO and CBP considered all critical factors needed for deployment.

           Monitoring RPM Utilization

           CBP does not consistently gather and review utilization information to ensure
           that it is fully utilizing all RPMs. CBP receives and reviews monthly utilization


www.oig.dhs.gov                                 5                                         OIG-13-26

                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           reports; however, there was no indication that the reports were used to
           determine how RPMs are utilized or affect deployment decisions. For example,
           CBP’s Data Analysis Center provides the Office of Field Operations reports that
           include monthly primary and secondary screening totals for each seaport
           location and scan data for each RPM lane. The Data Analysis Center can also
           provide more detail for each seaport, such as utilization of each RPM lane.

           CBP established the Port Radiation Inspection Detection and Evaluation system
           to monitor and retrieve data; however, this system is not fully installed at all
           ports. This system connects the network of radiation detection equipment to
           the CBP network. It provides data monitoring and retrieval capabilities so that
           CBP can immediately assess and respond to radiological threats. Additionally,
           the system can be populated with commodity and shipper information by
           connecting to CBP’s system that targets cargo for screening. CBP officers enter
           alarm data into computers, such as information on the commodity, shipper, and
           the type of radiation identified.

           During our review of the monthly Data Analysis Center reports, we tested the
           data and identified that it was incomplete and would need attention if CBP were
           to rely on it. CBP’s policy and training guide provide a standard for
           completeness; however, the data is often incomplete. According to the Data
           Analysis Center, the entry of data is approximately 50 percent complete.
           Further, we identified 11 RPMs at multiple locations that did not have updated
           screening totals, even though the equipment was active at these locations.

           During our review of CBP data and site visits, we identified primary and
           secondary RPMs that were screening very few containers annually. Although
           CBP’s Office of Field Operations obtains a monthly report with screening totals
           by seaport, the office was unaware of an RPM that was rarely used for several
           years. Local CBP personnel at one port could not explain why some RPMs
           remained idle for years. During our site visits to the seven ports selected for
           review, we identified 24 of 185 RPMs infrequently used or not used at all.
           Specifically:

                  •   19 of 185 RPMs or 10 percent were not being used.

                         - Four of these RPMs at one terminal had not been used since
                           February 2011. The RPMs remain inactive while they wait to be
                           transferred to another nearby terminal.




www.oig.dhs.gov                                  6                                     OIG-13-26

                                OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


                          - Three RPMs were not being used due to seaport reconfiguration
                             in January 2011.1
                          -	 Two RPM systems had not been used since January 2011.

                  •	 Five of 185 RPMs or 3 percent were 

                                                                          Exhibit 2
                     rarely used and screened a minimal 

                     volume of the containers at the 

                     location. 


                          - Four RPMs had multiple tandem
                            lanes that unnecessarily
                            screened every shipment twice.2
                            Whether the container alarmed
                            or not, it was screened by two
                            RPM systems. Exhibit 2 shows
                                                                          RPM unit configured with tandem
                            an RPM set up in a tandem lane.               lanes.
                                                                          Source: DHS OIG
           Additionally, CBP does not always monitor and
           evaluate changes in the seaport screening environments to promptly relocate
           RPMs as necessary. CBP and DNDO have removed 46 RPMs since their initial
           deployment; however, we could not determine whether these changes resulted
           from insufficient planning for deployment or changes in screening environments.
           According to CBP, some of these units are in the process of being relocated to
           other ports.

           Although CBP and DNDO maintain joint deployment documents, they do not
           include guidance that would help ensure the agencies promptly relocate RPMs
           for operational efficiency. For example, the 2006 PEP, which guided the early
           RPM deployment decisions, does not include a detailed relocation process. The
           PEP does not contain information on the responsible entity or guidance to help
           ensure that RPMs are promptly relocated as seaport screening demands change.
           Instead, when CBP determines that it needs to change the RPM configuration at
           a seaport, CBP port officials submit a request to CBP Headquarters. DNDO
           approves some of these change requests, but others are handled internally by
           CBP. As a result, RPM systems can remain idle for extended periods of time.

   1
     Reconfiguration is the addition, deletion, and/or relocation of RPMs at a previously completed site to
   accommodate changes in a port, crossing terminal, gate, or facility reconfiguration; it may also include
   addition or moving of panels to accommodate updates to detection requirements or changes to cargo
   being screened.
   2
     In a tandem lane, the secondary RPM is directly connected to the primary RPM; vehicles must pass
   through both, regardless of alarms. We observed exit gates with one tandem lane and others with
   multiple tandem lanes.


www.oig.dhs.gov                                         7	                                              OIG-13-26

                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           In addition, CBP does not formally document its process to ensure prompt
           resolution of required changes to RPM operations and locations. According to
           DNDO and CBP, they were to update the PEP to reflect these changes as
           necessary. Instead, approved Baseline Change Requests are recorded outside of
           the document in an Excel spreadsheet. CBP attempted to revise the Joint
           CBP/DNDO Deployment Strategy in 2008, but DNDO did not approve the
           document and could not provide a reason for this decision. Appendix E contains
           details on the RPM relocation process.

           Without a standard to measure RPM utilization or a process to collect and
           analyze detailed utilization information, CBP cannot ensure full utilization of
           RPMs or the best use of funds. Given that there are limited funds to sustain the
           RPM program and that there are no plans to replace the RPMs when they are no
           longer useful, CBP and DNDO need to ensure that they are using their current
           resources most efficiently.

           Inventory Control

           Neither CBP nor DNDO has ensured that the inventory of RPM equipment is
           complete and accurate. Both entities rely on PNNL to inventory the equipment;
           however, a comprehensive audit has never been conducted to account for all of
           the property. According to CBP’s PersonalfPropertyfandfAssetfManagementf
           Handbook, port personnel must perform an annual inventory of “capitalized and
           accountable” property, including the RPM systems. We reviewed the FY 2011
           and FY 2012 inventory reports for seaport RPM systems and determined that not
           all systems were reported. In FY 2011 and FY 2012, CBP port personnel did not
           inventory 70 RPM systems and 20 RPM systems, respectively.

           We were unable to reconcile the weekly individual inventory reports PNNL
           provides to CBP and DNDO. Once PNNL deploys an RPM system to a location,
           CBP tracks the system and any transfer of equipment between locations. CBP’s
           Systems, Applications, and Products system reports the equipment as a system,
           without tracking the many different pieces that make up each RPM system such
           as panels, computers, booths, and enunciators. We were also unable to
           reconcile inventory records in the Systems, Applications, and Products system
           with PNNL’s current deployment list, and we noted that a minimum of 10 RPM
           systems were missing among the records. CBP officers at the port of entry
           record the information in the Systems, Applications, and Products system. The
           inventory reports system location, acquisition value, and asset number. DNDO
           only maintains a spreadsheet to track the approved, pending, or unfunded
           reconfigurations of RPM equipment.



www.oig.dhs.gov                                8                                      OIG-13-26

                                OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


            During our review of the inventory reports, DNDO informed us that PNNL does
            not inventory or track the mobile RPM equipment at port locations.3 PNNL relies
            on CBP to track mobile RPM units through a maintenance database. We
            identified 12 instances in which the number of mobile RPMs at a location could
            not be verified and confirmed. For example:

             •	 At one seaport, the PNNL records showed a total of 24 mobile RPMs;
                however, we could only locate 17 systems. After questioning the
                discrepancy, port personnel explained that the mobile RPMs were relocated
                several years ago.
             •	 At another port, PNNL’s inventory reported eight mobile RPMs. We could
                only locate six systems. CBP port personnel indicated that two mobile RPMs
                had been moved to a different location also under their management.

            Without auditing and verifying all RPM inventory, CBP and DNDO are not
            properly accounting for government property. Further, the components cannot
            be assured that the equipment is being maintained, utilized, and relocated to
            make the best use of its limited life and screening capabilities.

            Sustaining the RPM Program

            To support the PEP, CBP and DNDO developed the JointfDNDO/CBPfDeploymentf
            StrategyfForfDomesticfBorderfCrossingfNuclearfDetectionfSystem (joint strategy)
            to define the future RPM program. The joint strategy identified specific actions
            to improve screening efficiency at seaports by implementing Advanced
            Spectroscopic Portal technology and deploying RPMs that used this technology.
            DHS cancelled the program in 2011 because of operational and technical
            failures. However, CBP and DNDO did not update the joint strategy to address
            how seaports would be affected by the cancellation.

            DNDO initially provided the RPM program with $25 million annually and reduced
            the funding to $5 million annually. With greatly reduced projected future
            funding for the RPM program, alternate sources of funding will have to be
            obtained or significant scope and services must be cut. The reduction of
            program services will retain only the most critical functions to support
            deployments and overall project management.




   3
    Mobile RPMs are truck-mounted RPM systems designed to detect nuclear materials in cargo containers.
   The mobile RPM is appropriate for seaport, rail, airport, and vehicle cargo applications, but is mostly used
   by CBP at seaports.


www.oig.dhs.gov                                         9	                                               OIG-13-26

                            OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           Neither entity has identified technologies to replace the current RPMs, nor has
           DNDO provided sufficient funding to deploy technologies to increase their
           service life. As a result, it is unclear how screening efficiency will be improved in
           the future. It is also unclear how CBP and DNDO will sustain the current level of
           screening given that fewer RPMs will be in service as they age.

           Recommendations

           We recommend that the United States Customs and Border Protection Acting
           Assistant Commissioner, Office of Field Operations, and the Domestic Nuclear
           Detection Office Assistant Director, Product Acquisition:

           Recommendation #1:

           Identify a single program office responsible for fully coordinating and centrally
           managing the radiation portal monitor program to ensure effective and efficient
           operations and future planning. In the office, designate responsible officials to
           ensure overall program performance, accountability, coordination, and inventory
           control for the relocation and utilization of the equipment.

           Recommendation #2:

           Establish guidelines to track and report the utilization of radiation portal
           monitors at every seaport. The guidelines should allow for some exceptions
           based on unique environmental conditions, yet ensure minimally used
           equipment is reported and relocated promptly for more efficient utilization.

           Recommendation #3:

           Develop and document a formal collaborative process to ensure that radiation
           portal monitor relocation is effectively planned and implemented to meet
           security needs at seaports. The process should ensure that, in making these
           decisions, all relevant data is reported and analyzed.

           Management Comments and OIG Analysis

           CBP and DNDO submitted unified formal comments to our report, and a copy of
           the response in its entirety is included as appendix B. CBP and DNDO also
           provided technical comments and suggested revisions to our report in a separate
           document. We reviewed CBP and DNDO’s technical comments and made
           changes in the report when appropriate. Both CBP and DNDO appreciated our



www.oig.dhs.gov                                 10                                         OIG-13-26

                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           efforts and concurred with all three of our recommendations. A summary of the
           responses and our analysis of those responses are as follows.

           Response to Recommendation #1: CBP and DNDO concurred and will work
           together to ensure a balanced and reasonable approach is taken to implement
           this recommendation. The completion date will be determined no later than
           January 2014. The components explained that multiple options are considered
           when determining the best approach for moving forward. The components will
           work with Headquarters for the best approach to implement the
           recommendation while examining the statutory framework; conducting a legal
           review; defining the organizational components, roles, and responsibilities; and
           estimating the cost.

           OIG Analysis: CBP and DNDO’s planned corrective actions will be responsive to
           the recommendation. This recommendation will remain open and resolved until
           we receive documented support that CBP and DNDO have developed plans and
           identified a single program office responsible for fully coordinating and centrally
           managing the RPM program. The intent of the recommendation is to have a
           single program control point to make any ultimate decisions on the RPM
           program, not necessarily to stand up a new program office.

           Response to Recommendation #2: CBP and DNDO concurred and are taking
           action to implement the recommendation. Expected to be completed by May
           2013, these actions include: initiating a study to investigate the need for
           secondary RPMs and associated cost implications of using handheld systems for
           alarm adjudication; updating the current deployment guidance for primary and
           secondary RPMs, related to initial deployments and configurations; establishing
           a process to periodically assess RPM usage and identify RPMs for potential
           deactivation or decommissioning; and establishing a joint asset team to identify
           efficiencies in internal asset and inventory management.

           OIG Analysis: CBP and DNDO’s planned corrective actions will be responsive to
           the recommendation. The recommendation will remain open and resolved until
           we review documented support on the study to investigate the need for
           secondary RPMs and associated cost implications of using handheld systems,
           updated information for deployment guidance for primary and secondary
           configurations, a documented process to periodically review RPM usage at
           seaports, and documentation on the establishment of a joint asset team and its
           purpose.




www.oig.dhs.gov                                11                                       OIG-13-26

                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Response to Recommendation #3: CBP and DNDO concurred and will ensure
           the appropriate offices take the necessary steps to improve the RPM relocation
           processes to oversee systems to meet required standards. CBP and DNDO are
           currently developing a 2013 PEP, documenting current RPM deployment projects
           on the basis of priorities and a long term PEP for the RPM process, and further
           defining roles and responsibilities. The components expect to have these
           changes in place by September 2013.

           OIG Analysis: CBP and DNDO’s planned corrective actions will be responsive to
           the recommendation. The recommendation will remain open and resolved until
           we review documented support that the components have established a formal
           collaborative process to ensure RPM relocations are effectively and
           comprehensively planned and implemented to meet security needs at seaports.




www.oig.dhs.gov                              12                                     OIG-13-26

                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   We conducted this audit to determine whether DNDO and CBP are deploying and using
   RPMs to ensure the most efficient cargo screening at seaports. To answer our objective,
   we reviewed prior audit reports and the recommendations. We reviewed policies and
   procedures for deployment and use of RPMs, including the GlobalfNuclearfDetectionf
   ArchitecturefStrategicfPlanf2010, the 2006 PEP, the JointfDNDOfCBPfStrategyfforf
   DomesticfBorderfCrossingfNuclearfDetectionfSystem, Government Accountability Office
   StandardsfforfInternalfControlfinfthefFederalfGovernment, and CBP Directive 5290-015A.
   We reviewed and compared criteria to CBP’s deployment and utilization of RPMs, and
   we analyzed available documentation supporting decisions for the equipment’s
   deployment and use.

   We interviewed officials within CBP, including the Office of Field Operations’ Non-
   Intrusive Inspection; Office of Information and Technology; Office of Administration
   Facilities, Management, and Engineering; Office of Intelligence and Investigative Liaison;
   Office of Operational Field Testing Division; and Enforcement Technology Program. We
   also interviewed CBP lab partners, DNDO officials, and PNNL officials.

   We analyzed relevant information used by CBP and DNDO for the deployment and
   relocation decisions. This included the initial deployment criteria to determine factors
   contributing to deployment decisions, Baseline Change Requests, RPM deployment
   expenditure data, and the process for the reconfiguration and decommissioning of RPM
   equipment. We have limited assurance in the reliability of the RPM expenditure data
   because CBP officials informed us that supporting documentation for specific RPM
   expenditures was outdated and not accessible.

   To select locations to visit we analyzed RPM reports on scan and alarm data to identify
   usage at seven ports of entry. We also asked CBP for a list of RPM activity at ports of
   entry. CBP provided a list of the number of RPM scans and alarms for 108 CBP ports of
   entry from key personnel at CBP Headquarters. The data represented FY 2011 and the
   first three quarters of FY 2012. During the review, we determined that some of the CBP
   data was incomplete and may be unreliable. We divided the list into three tiers: 1)
   high-volume locations with scans in the millions; 2) mid-volume locations with scans in


www.oig.dhs.gov                               13                                       OIG-13-26

                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   the 100,000’s; and 3) low-volume locations with scans below 10,000’s. Due to time
   constraints and limited accessibility to some geographical locations, we visited the high-
   volume seaport terminals.

   We visited terminals at seven seaports where we interviewed port personnel, the port
   director, supervisors, and CBP officers. We reviewed inventory lists and equipment to
   ensure all RPM panels were accounted for, deployed, and used. We also verified
   inventory and the screening procedures applied at each terminal visited.

   As of August 2012, DNDO reported that there were 1,459 RPMs deployed at all ports of
   entry. Of the 1,459 RPMs, there are 444 deployed at 39 different seaports. We
   observed operations selected for review at the seven of the seaports, which included
   185 RPMs and 27 mobile RPMs.

   To evaluate the cargo inspection targeting system for international intermodal cargo
   containers, we reviewed the training curriculum. We assessed the competence and
   training of system operators by confirming the personnel requirements for utilizing RPM
   equipment, analyzing the training curriculum, and verifying officer knowledge through
   onsite observations to ensure the officers were meeting standards. We evaluated the
   process for conducting RPM operations and resolving RPM alarms. We also evaluated
   the process for reporting the resolution of RPM alarms and completeness of the Data
   Analysis Center database and the Cargo Enforcement Reporting Tracking System used
   for reporting the resolution of RPM alarms. We compared these processes to criteria
   and determined whether RPM resolution data is used in future targeting efforts. We
   compared RPM operations conducted by CBP officers at local Ports of Entry with CBP
   Directive 5290-015A.

   We conducted this performance audit between April and November 2012 pursuant to
   the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                                14                                       OIG-13-26

                                  OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report
                                                                                        1300 Pennsylvania Avenue           ~V
                                                                                       .......";J~hingt(')n , nc 2.0 229



                                                                                       u.s. Customs and
                                                                                       Border Protection



                                                         January II , 20 13




                  Charles K. Edwards
                  Ueputy Inspector General
                  I)epartment of Homel imd Security
                  245 Murray Drivc, SW, Building 410
                  Washington, DC 20528

                  Re:   Draft Report, " United States Customs and Border Protection's Radiation Portal
                        Monitors at Seaports" (OIG Project No. 12-033 -AUD-C BP)

                  Dear Mr. Edwards:

                  Thank you fo r the opportunity to review and comment on this draft report. U.S . Customs
                  and Border Protection (CBP) and the Domestic Nuclear Detection Office ( DNDO)
                  appreciate the 0 1IS Oftice of Inspector General ' s (OIG's) work ill planning arid
                  conducting its review and issuing this report.

                  The Radiation Ilortal Monitor (RPM) Program is an important and signi fi cant activity in
                  CSP's execution of its mission to interdict illicit radioactive materials and to prevent their
                  t!nlry intn the (Jnited Stntc,,_ CB P is pleased to note the OIG's positive recognjtion that
                  e BP' s execution o rthc RPM Program is consistent with the requirements of the Secudl}
                  and Accoumability for Every PorI ACl of 1006, as amended , to scan all containerized cargo
                  enteri ng the United States at the 22 seaports with the greatest cOlltainer volume.

                  ·I'he draft report contained three recommendations directed to CB P' s Acting Assistant
                  Comm issioner, Oftice o f Field Operalions, and DNDO' s Assistant Directoz', Product
                  Acq uisition. CBP nnd ONDO concur with all threc recommendations. Specifically:

                  Recommendation 1: Identify a single program oftice responsible fo r fully coordinating
                  and centrally managing the RPM program to ensure effective and efficient operations and
                  futurc planning. In the ottice. designate responsible officials to ensure overall program
                  perfonnance, accountability, coordination, and inventory contro l ror the relocation and
                  utilization of the equipment.

                  Response: Concur. CBP and DNDO will work together to ensure a balanced and
                  reasonable approach is taken to implement this recommendation, and that multiple options
                  are considered when determining the best approach for moving farv./ard with staudiug up a




www.oig.dhs.gov                                                 15                                                              OIG-13-26

                                   OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




                  program management office (PMO). This wi ll include ensuring thc dcfinjtion and
                  establishment of a PMO we ba!;t;(j un slalutmy, operaTional, fund ing and policy
                  cons iderations, as appropriate. fhe Following actions will be needed fo r designation of the
                  PMO,

                      I. Explore with Headquarters the best appmach TO implement the recommendation .

                      2. Establ ish a schedule for concluding these actions and initiation of operati ons for the
                         PMO, including concurrence from all impacted agencies.

                     3. Examine the statuto!), framework for the program office with respect to scope.

                     4. Define the critical organizational components, and roles and responsibil ities or the
                        program office.

                     5. COlluucllegal review ortlle proposed designation to ensure consistency with all
                        applicable and relevant statutes and appropriations.

                     6. Estimate the cost of implementing this UIG audit recommendation.

                   Estimated Completion Date (ECD): To be detennined no laterthan January 31, 2014

                  Recom mendation 2: Establish guidelines to track and report the utilization ofRPMs at
                  every seaport. The guidclines should allow for some exceptions based on unique
                  envirolUnt:ntal conditions, yet ensure minimally lIsed equipment is reported and relocated
                  promptly for more efficient utilization.

                  Rt'.sponse: Concur. The followinB actions are underway or wil t be initiated :

                     1. CBP/Office of Fie ld Operation/Cargo and Conveyance Securi ty DivisionINon-
                        Intrusive inspection Division has initiated a study to ill vt::stigalt:: the need for
                        secondary RPMs and associated cost implications of using handheld systems for
                        alarm adjudication. ECD: March 3 1. 2013

                     2. Update cUlTent RPM deploymt:nt guidance fo r primary and secondary
                        con figurations related to initial deployments and reconfigurations .
                        ECD: May 31, 2013

                     3. Establish a process to period ically assess RPM usage and identify RPMs for
                        pOlent ial deactivation or decommissioning and IO initiate action as follows:
                        a. Remove unused RPMs from the maintenance and calihration scned li le only
                            once final status of the lane has been detennined on the basis of pon of entry or
                            tenninal operator plans.
                        b. Kemove an KPM from a lane only when the lane is no longer uscd for inbound
                           comaillerizeu Gafgu or conveyanct!S with any fumre plans for RPM usage.



                                                                                                                2




www.oig.dhs.gov                                                   16                                                OIG-13-26

                                  OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




                          c. Develop 0 cost estimate for removru of all unused RPMs after dctctmination of
                             mJ potential future use in current locarion.
                          ECO: May 3 1, 2013

                      4. CBP has established a joint assct team to identi fy efficiencies in internal asset and
                         inventory management. CBP will establish and implement a separate logistics
                         inventory/property accountability system to address any gaps in inventory .
                         ECD: Completed. Specifically a j oint asset team was fonned in December 2012 to
                         address inventory issues and gaps.

                  Overall ECD: May31,20 l3

                  Rccommendation 3: Develop and document a fonnaJ collaborative process to ensure that
                  RPM relocation is effectively planned and implemented to meet security needs at seaports.
                  The process should ensure that, in making these decisions, all relevant data is reported and
                  analyzed.

                  Response: Concur. Sa.feguard ing and acco unting of eBP owned and operated equipment
                  is a very significant fiducia.ry responsibiUty and 'he will ensure till: appropriah:: uffir.;es lake
                  the necessary steps to improve these processes to oversee systems to meet required
                  standards_ The foUowing actions are undenNay or will be in.itiated:

                      I. CBP and DNDO art; lk\'doping a Prujt:ct Ext:cution Plan (PEP) [or Fi~al Yc:<:Ir
                         20 13 for planned RPM deployments and reconfigurations. This new PEP wilt
                         document the currt:ut appro"ed RPM dt:ploYIJIt:nt projects 011 the (nlsis ur priurities.
                         as previously documented in memoranda to DNDO.
                         neD: february 28. 20 13

                      2. CO P and DNDO are developing a Project Management Plan and long-t.enu PEP to
                         further derme the RPM deployment process and roles and responsibilities.
                          ECD: SeplemberJO, 2013

                      3. CBP Office of Field Operations will conduct recurring teleconferences with each
                         Field Office to discuss inspection and detection techno logy needs, issues and future
                         requirements.
                         ECD: Completed. In itiated December 20 12 and will continue. as needed .

                  Ovcntll ECD : September 30, 2013




                                                                                                                     J




www.oig.dhs.gov                                                 17                                                       OIG-13-26

                                 OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




                  Again, thank you for the opportunity to review and comment on this draft repOit.
                  Technical COll1lut:uLs wt:n::: pTt!viously prnvided under separate cm:er. Please feel free to
                  contact me if you have any questions. Alternatively, a member of your staff can contact
                  Kathryn Dapkins, Audit Liaison. Office of lnlt:rnal Affai rs at (202) 325-7732. We look
                  forward to working wi th you in the future.

                                                         Sincerely,

                                                        /&j~dli>/Z
                                                      4ru?e:: ~omshcck
                                                         Assistant Commissioner
                                                         Office of lnternul   Affai~




                                                                                                                  4




www.oig.dhs.gov                                               18                                                      OIG-13-26

                               OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Appendix C
   CBP Process for Resolving RPM Alarms




   Source: CBPf-fOfficefoffTrainingfandfDevelopmentfRadiationfPortalfMonitorfAttritionfTraining:fReviewfandf
   FieldfExercisesfInstructorfGuide, December 2011




www.oig.dhs.gov                                       19                                              OIG-13-26

                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix D
   Response to Congressional Mandate to Assess Training
   We conducted onsite interviews and observations of CBP officers’ compliance with
   established criteria and training, which supported that officers are sufficiently
   competent in operating RPMs to detect illicit radiological sources. We assessed the
   competence and training of employees operating the system to determine whether they
   are sufficiently capable of detecting potential terrorist threats, and to determine
   whether CBP officers are trained and competent to utilize RPM equipment to detect
   illicit radiological sources. We verified that CBP officers must take the Virtual Learning
   Center “RPM Attrition” course as a prerequisite to the “Radiation Portal Monitor
   Training” course provided by the CBP Field Operations Academy. We compared onsite
   RPM operations conducted by CBP officers at local ports of entry with CBP Directive
   5290-015A.

   RPM training provides CBP officers with knowledge in the following areas critical to
   using RPM equipment:

       •	 CBP radiation detection requirements
       •	 Sources of radiation that may cause RPM alarms
       •	 Types of radiation detection equipment
       •	 RPM terminology
       •	 Types of cargo that cause the majority of alarms at ports of entry
       •	 Identification of RPM components
       •	 Substance resolution and falsified U.S. Nuclear Regulatory Commission 

          certificates 

       •	 Interpretation of RPM profile graph printouts and the alarm view window
       •	 RPM care and maintenance requirements
       •	 Field exercises covering RPM component identification, operation, and alarm
          resolution

   CBP officers are evaluated on their performance and adherence to CBP Radiationf
   DetectionfProgramfDirectivef5290-015A and local standard operating procedures (as
   applicable). The tool for this evaluation is the Personnel Qualification Standard.
   CBP officers are certified as having completed the course when they have achieved 70
   percent on the final evaluation and are entered in the Training Records and Enrollment
   Network. If participants do not achieve a score of 70 percent or better, remediation or
   an opportunity to retake the course is provided; those students are then allowed to
   retake the evaluation.




www.oig.dhs.gov                               20	                                         OIG-13-26

                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   A total of eight field exercises are used to give CBP officers the opportunity to
   demonstrate the standard processes associated with RPM operation and to follow the
   requirements for responding to alarms and alerts. After these exercises, CBP officers
   participate in a final classroom exercise.




www.oig.dhs.gov                              21                                      OIG-13-26

                             OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix E
   RPM Reconfiguration Process




   Source: DHS-OIG with input from CBP and DNDO. 





www.oig.dhs.gov                                      22              OIG-13-26

                                   OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Appendix F
   RPM Program Planning
      2006 Project Execution        Joint DNDO/CBP Deployment             Planning Shortfalls
            Plan (PEP)              Strategy For Domestic Border
                                     Crossing Nuclear Detection
                                               System


     Defines the current            According to the Joint           The PEP and the Joint
     overall project objectives,    Strategy, DNDO has the           Strategy do not include RPM
     work scope, schedules,         charter to develop and           reconfiguration planning or
     costs, and required            acquire appropriate nuclear      a mitigation strategy for key
     funding for Pacific            detection technologies that      planning assumptions.
     Northwest National             meet user requirements and
     Laboratory (PNNL) to           support the deployment of
     support DNDO and CBP in        those technologies. CBP has      CBP’s and DNDO’s roles and
     deploying RPMs at ports        the lead for deploying,          responsibilities are included
     of entry.                      commissioning, operating,        in the Joint Strategy, but not
                                    and maintaining the nuclear      in the PEP.
                                    detection systems that
                                    compose the Domestic
                                    Border Crossing Nuclear          No clear and transparent
                                    Detection System.                joint decision-making.
     The PEP describes the
     RPM deployment process
     to be executed by PNNL.                                         No RPM sustainment
     It also explains Baseline      The purpose of this              planning.
     Change Requests, which         document is to present a
     are deployment changes         jointly developed strategy for
     that impact the scope,         the deployment of RPMs for
     schedule, and cost             securing the Nation’s border
     baselines. It also includes    crossings from attempts to
     key planning assumptions       smuggle nuclear devices,
     for program funding,           special nuclear materials, or
     technology, and                threatening radioactive
     deployments.                   materials.




   Source: DHS OIG 





www.oig.dhs.gov                                        23                                             OIG-13-26

                         OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix G
   Major Contributors to This Report
   Patrick O’Malley, Director
   J. Eric Barnett, Audit Manager
   Cheryl Jones, Audit Manager
   LaTrina McCowin, Auditor-in-Charge
   Kevin King, Auditor
   Jeffrey Wilson, Program Analyst
   Thomas Hamlin, Program Analyst
   Brian Smythe, Program Analyst
   Kelly Herberger, Communications Analyst
   Ralleisha Dean, Independent Reference Reviewer




www.oig.dhs.gov                            24                   OIG-13-26

                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Appendix H
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer
   Commissioner CBP
   CBP Liaison
   Director, Product Acquisition and Deployment, Domestic Nuclear Detection Office
   DNDO Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                             25                                       OIG-13-26

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
